Audit Report




OIG-11-003
SAFETY AND SOUNDNESS: Failed Bank Review of Home
Federal Savings Bank
October 18, 2010




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE N ERA L


                                              October 18, 2010


              OIG-11-003

              MEMORANDUM FOR JOHN E. BOWMAN
                             ACTING DIRECTOR
                             OFFICE OF THRIFT SUPERVISION

              FROM:                 Kieu T. Rubb /s/
                                    Director, Procurement and Manufacturing Audits

              SUBJECT:              Failed Bank Review of Home Federal Savings Bank


              This memorandum presents the results of our review of the failure of Home Federal
              Savings Bank (Home Federal). Home Federal, a designated minority depository
              institution, was established in May 1947 and was granted a federal mutual savings
              bank charter in March 1985. The thrift had a main office and one branch in Detroit,
              Michigan. The Office of Thrift Supervision (OTS) closed Home Federal and
              appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on
              November 6, 2009. At the time of closure the thrift had $14.9 million in total
              assets. FDIC estimated that the loss to the Deposit Insurance Fund is $5.4 million.

              Because the loss to the Deposit Insurance Fund is less than $200 million, as set
              forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
              review of the failure of Home Federal that was limited to (1) ascertaining the
              grounds identified by OTS for appointing the FDIC as receiver and (2) determining
              whether any unusual circumstances exist that might warrant a more in-depth
              review of the loss. In performing our review we (1) examined documentation
              related to the appointment of FDIC as receiver, (2) reviewed OTS reports of
              examination, and (3) interviewed OTS examination personnel.

              We conducted this performance audit during August and September 2010 in
              accordance with generally accepted government auditing standards. Those
              standards require that we plan and perform the audit to obtain sufficient,
              appropriate evidence to provide a reasonable basis for our findings and conclusions
              based on our audit objectives. We believe that the evidence obtained provides a
              reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-003
Page 2

Causes of Home Federal’s Failure
The primary causes of Home Federal’s failure were ineffective management,
inadequate board oversight, and deterioration in asset quality due to the economic
downturn in Detroit, the thrift’s market area. Home Federal experienced rapid asset
deterioration beginning in 2007, resulting in significant increases in problem assets and
loan losses. These loan losses, combined with high general and administrative costs
and minimal deposit gathering and loan generation, significantly diminished earnings
and capital and ultimately led to Home Federal’s failure.


Conclusion
Based on our review of the causes of Home Federal’s failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Home Federal’s failure
summarized in this memorandum are consistent with the information contained in
its reports of examination and documents in support of the grounds for
receivership. The response is provided as Attachment 1. A list of the recipients of
this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5904 or
Deborah Harker, Audit Manager, at (202) 927-5762.

Attachments
         OIG-11-003

       Attachment 1
Management Response
                                                   OIG-11-003

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
